Case 2:99-cv-00825-PD Document 66 Filed 04/27/21 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA

ARTHUR O. ARMSTRONG
CIVIL ACTION
v.
SCHOOL DISTRICT OF PHILADELPHIA,
et ai

NO.: 99-cv-00825

OR PER
AND NOW, this 27™ day of APRIL 2021, in accordance with the
court's procedure for random reassignment of cases, it is hereby,
ORDERED that the above-captioned case is reassigned from the
calendar of the Late Honorable Herbert J. Hutton, to the calendar of the Honorable
Paul S. Diamond.

FOR THE COURT:

JUAN R. SANCHEZ
Chief Judge
ATTEST:

KATE BARKMAN
Clerk of Court

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

No. 21-8022

Armstrong v. Philadelphia School District
(E.D. Pa. No. 2-99-cv-00825)

ORDER

By order entered October 14, 2005, Mr. Armstrong was enjoined from filing,
without prior authorization of this Court, any appeal, petition for writ of mandamus,
petition for rehearing, or motion to reopen related to his discharge as a teacher in the
Philadelphia public school system, the property located at 1731 East Wynsam Street,
Philadelphia, PA, and his asbestos litigation with the Budd Company. This Court further
ordered on February 24, 2016, that Mr. Armstrong may file only one motion for
authorization to file a new action, petition, or motion in any twelve-month period.
Mr. Armstrong filed an appeal in the above-captioned District Court action, which
relates to his discharge as a teacher in the Philadelphia public school system. Mr.
Armstrong did not seek prior authorization from this Court to file an appeal as required
by the Court’s October 14, 2005 injunction order. Additionally, the Court denied Mr.
Armstrong’s most recent motion for authorization on December 9, 2020, in No. 20-8043.
Mr. Armstrong is therefore not permitted to file a new motion for authorization until
December 8, 2021. Accordingly, the foregoing unauthorized appeal is dismissed.
V

For the Court,
s/ Patricia S. Dodszuweit
Clerk
Dated: May 5,2021
LML/cc:
Mr. Arthur O. Armstrong
Kate Barkman, Clerk

A True Copy:""0

Patricia S. Dodszuweit, Clerk

r

c/iurTEENTH AMENDMENT

A,I persons or naturai.zed in the
in which they reside, no State shall make orenfo
which shall abridge any

Y

deprive any

faw" nor d^ to atpe-n within* Jurisdiction the e„ua,
protection of the law.
fl? IISC.S.1983
3

Every person who,
S££ ofSmbia, subject or caused to be sheeted
ifeen of the Untted States, or other person wrthm the
any c
of any rights,
jurisdiction thereof to the deprivation
immunities secured by the Constitution and
privileges, or immunities ^” *totheparty injured

ran^f"^* in equity, or other proper
proceeding for redress.
Article 8-Vlll
fiPiPVAWCF PROCEDURE

A grievance is *
improper antTunfair, or ther®^s^e®^
m'SinhrJhere0ha°sr ton ”3“ olation, misinterpretation,
or that there ha
or otherwise improper

"potato rfany provision of this Agreement
appendix c

\

\

\.

